              WOMAN SENTENCED FOR THEFT OF VISTA CHECK


A Maryland woman has been convicted of stealing and cashing a Volunteers in Service to
America (VISTA) member’s stipend check in a case investigated by the Office of
Inspector General of the Corporation for National and Community Service and the
Baltimore County Police Department.

Ms. Margie Perkey, of Baltimore, was found guilty of one count of Theft (less than $500)
in District Court of Maryland for Baltimore County, Towson, Maryland. She was
sentenced to serve 18 months of supervised probation, 80 hours of community service,
pay court costs, and make full restitution. A second charge of Uttering (negotiating) a
False Document, which carried a sentence to ten years confinement and/or a $1,000 fine,
was dismissed based on Ms. Perkey’s cooperation and guilty plea.

Ms. Perkey admitted wrongfully obtaining a U.S. Treasury check in the amount of
$370.99, made payable to a VISTA member. The payment was the member’s stipend,
which is paid to VISTA members to cover their living expenses. Ms. Perkey then forged
the member’s name to the check and negotiated the check at a local grocery store.

Alan Boehm, Assistant Inspector General for Investigations, noted that the OIG
investigates all incidents involving Corporation funds, including those in which program
volunteers have been victimized.
